WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-7260

(Al Rue Hopkins State of Florida
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Kabtccea Kock Ulespuipan

Date: 3/29/21

(Type or print) Name Rebecca Rock McGuigan

O mr. O Ms. © Mrs. O Miss
Firm Office of the Florida Attorney General
Address 444 Seabreeze Boulevard, 5th Floor, Suite 500
City & State | Daytona Beach, Florida Zip 32118
Phone 386-238-4990 Email rebecca. mcguigan@myfloridalegal.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Al Rue Hopkins
ce:
